No. 20-472
IN THE SUPREME COURT OF THE UNITED STATES
_________________
HOLLYFRONTIER CHEYENNE REFINING, LLC, ET AL., PETITIONERS
v.
RENEWABLE FUELS ASSOCIATION, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL RESPONDENT IN OPPOSITION, via e-mail and firstclass mail, postage prepaid, this 8th day of December 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 3,458 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 8, 2020

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 8, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0472
HOLLYFRONTIER CHEYENNE, ET AL.
RENEWABLE FUELS ASSN., ET AL.

JENNY R. BUCHHEIT
ICE MILLER LLP
ONE AMERICAN SQUARE
SUITE 2900
INDIANAPOLIS, IN 46282
SHELBY LEIGH DYL
PILLSBURY WINTHROP SHAW PITTMAN
1200 SEVENTH STREET, NW
WASHINGTON, DC 20036
SHELBY.DYL@PILLSBURYLAW.COM
ANDREW MICHAEL GROSSMAN
BAKER & HOSTETIER LLP
1050 CONNECTICUT AVE., NW
SUITE 1100
WASHINGTON, DC 20036
RYAN C. MORRIS
SIDLEY AUSTIN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
RMORRIS@SIDLEY.COM
MATT VANWORMER
OFFICE OF THE WYOMING ATTORNEY
GENERAL
2320 CAPITOL AVENUE
CHEYENNE, WY 82002
307-777-6946
MATT.VANWORMER@WYO.GOV

